IN THE
SUPREME COURT OF THE UNITED STATES

No. 20-1735

ANGEL MARTINEZ ORTIZ-DIAZ, ET AL.,
Petitioners,
v.
UNITED STATES, ET AL.
Respondents.

On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the First Circuit

BRIEF OF THE SENATE OF
PUERTO RICO AS AMICUS CURIE
' IN SUPPORT OF PETITIONERS

EDWIN QUINONES
COUNSEL OF RECORD
QUINONES, ARBONA & CANDELARIO

Chubb Plaza, Suite 701-A
San Juan, P.R. 00922
(787) 620-6776
equinones@qaclaw.com

ANIBAL ACEVEDO VILA
COUNSEL FOR AMICUS CURIE
LAW OFFICE OF ACEVEDO-VILA
894 MuSioz RIVERA AVE, SUITE 202

San Juan, P.R. 00927
(787) 200-0676
acevedovila 1@gmail.com

IN THE
SUPREME COURT OF THE UNITED STATES

No. 20-1735

ANGEL MARTINEZ ORTIZ-DIAZ, ET AL.,
Petitioners,
v.
UNITED STATES, ET AL.
Respondents.

On Petition for a Writ of Certiorari to
the United States Court of Appeals
for the First Circuit

BRIEF OF THE SENATE OF
PUERTO RICO AS AMICUS CURIE
IN SUPPORT OF PETITIONERS

EDWIN QUISIONES
COUNSEL OF RECORD
QUISIONES, ARBONA & CANDELARIO
Chubb Plaza, Suite 701-A
San Juan, P.R. 00922
(787) 620-6776
equinones@qaclaw.com

ANIBAL ACEVEDO VILA
COUNSEL FOR AMICUS CURIE
LAW OFFICE OF ACEVEDO-VILA
894 MuSlOz RIVERA AVE, SUITE 202
San Juan, P.R. 00927
(787) 200-0676
acevedovilal@gmail.com

CERTIFICATE OF COMPLIANCE
As permitted by Order No. 589 U.S. of Wednesday, April 15, 2020, the
undersigned Counsel certifies that, as required by Supreme Court Rule 33.1(h), the
BRIEF OF THE SENATE OF PUERTO RICO AS AMICUS CURIE IN
SUPPORT OF PETITIONERS in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.2, being prepared in New Century
Schoolbook 12 point for the text, and this brief contains 3580 words, excluding the
parts that are exempted by the aforementioned Rule, as needed.
RESPECTFULLY submitted,

EDWIN QUINONES
COUNSEL OF RECORD
QUINONES, ARBONA & CANDELARIO
Chubb Plaza, Suite 701-A
San Juan, P.R. 00922
(787) 620-6776
equinones@qaclaw.com

ANIBAL ACEVEDO VILA
COUNSEL FOR AMICUS CURIE
LAW OFFICE OF ACEVEDO-VILA
894 MUNOZ RIVERA AVE, SUITE 202
San Juan, P.R. 00927
(787) 200-0676
acevedovilal@gmail.com

2

CERTIFICATE OF COMPLIANCE
As permitted by Order No. 589 U.S. of Wednesday, April 15, 2020, the
undersigned Counsel certifies that, as required by Supreme Court Rule 33.1(h), the
BRIEF OF THE SENATE OF PUERTO RICO AS AMICUS CURIE IN
SUPPORT OF PETITIONERS in the above entitled case complies with the
typeface requirement of Supreme Court Rule 33.2, being prepared in New Century
Schoolbook 12 point for the text, and this brief contains 3580 words, excluding the
parts that are exempted by the aforementioned Rule, as needed.
RESPECTFULLY submitted,

EDWIN QUISTONES
COUNSEL OF RECORD
QUISTONES, ARBONA & CANDELARIO
Chubb Plaza, Suite 701-A
San Juan, P.R. 00922
(787) 620-6776
equinones@qaclaw.com

ANIBAL ACEVEDO VILA
COUNSEL FOR AMICUS CURIE
LAW OFFICE OF ACEVEDO-VILA
894 MUS1OZ RIVERA AVE, SUITE 202
San Juan, P.R. 00927
(787) 200-0676
acevedovila1@gmail.com

2

